WEINER LAW GROUPu»

nent Rom
629 Parsippany Road
Parsippany, New Jersey 07054
P (973) 403-1100 F (973) 403-0010

www.weinerlaw

ALAN J, BARATZ

Member of the Firm abaratz@weiner.law

January 4, 2021

Scott S, Harris, Clerk.

Supreme Court of the United States
Office of the Clerk

| First Street, N.E.

Washington, DC 20543

Re: — Leonard Patti v. George C, Peck, M.D.
Petition for Writ of Certiorari

Docket No; 20-797

Petition for Writ of Mandamus

Docket No; 20-798

Our File No: 88183

Dear Mr, Harris:

Our firm represents respondent, George C. Peck, Jr, M.D. in the above referenced
matters, which include the pro se petitioner’s petition for writ of certiorari that was filed March
20, 2020 and docketed December 11, 2020, and his petition for a writ of mandamus thal was
filed on October 1, 2020 and also docketed December 11, 2020. Enclosed herewith are copies of
waivers that I have executed concerning responses on behalf of my client to both petitions, | am
also this day filing the two (2) waivers through the Supreme Court’s electronic filing system and
| have forwarded copies of both waivers with a copy of this correspondence to the pro se
petitioner, Mr, Leonard Patti, via regular mail.

Thank you.
Sincerely,
WEINER LAW GROUP LLP

ead

Alan J. Baratz
A Member of the Firm

   

AJBuAb

ce: Leonard Patti, Pro Se
Lindsey Gelomini, Claims Counsel Conventus
George C. Peck, Jr., M.D. (personal and confidential)

(942462v1 88183 tur to harris ajb 1-4-2021

Parsippany @ Red Bank ¢ Bridgewater ¢ New York City
